                    1
                    i
                                  CLOSEOUT ON CASE M92020004
           This case Was brought to the attention of the OIG by the complainant
      a graduate student 4                     The complainant alleged that the subject,d
     -a                                      b - \
                           fellow graduate student                      misrepresented her ethnic
      origin on her combined NSF Graduate and Minority Fellowship application. Specifically, the
      complainant alleged that the subject had identitied herself as Hispanic on the application,
       when in reality she had only European Spanish heritage through her mother or one or both of
       her grandmothers.

         The subject was awarded an NSF Graduate F e l l o w s h i m Her fellowship
     application was reviewed. On Part One of the application, she had self-identified as
     "Hispanic, other." Information on racial and ethnic self-identification was obtained from the
     National Science Foundation, The Offlce of Personnel Management, the Office of
     Management and Budget, the Bureau of the Census, and the Department of Education. Each
     office indicated that individuals of Spanish descent are considered "Hispanic, other. "
     Therefore, the allegation has no substance because individuals of Spanish descent can
:1   correctly self-identify as Hispanic.

.          There is no basis for an allegation of misconduct, and this case is closed.




     Staff Scientist, Oversight


     Concurrence:



     --   g~ &L--
     Donald E. Buzzelli
                                    .a
                        -- ------ --%j,-g
                                     --..--.                  +j2-3!&4:~b----$-d$~
                                                             -- ----------
                                                             James J. Zwolenik
     Senior Scientist, Oversight                              Assistant Inspector General for Oversight




     ~ o n t ~ o m K.
                   e g Fisher
     Assistant Counsel to the Inspector General


     cc:       Assistant Inspector General for Oversight
               Inspector General
